        OFFICE OF AUDIT
        REGION V
        CHICAGO, IL                                      MEMORANDUM OF REVIEW
          




                              OFFICE OF

                              INSPECTOR GENERAL
                              U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT


                           

 




                     JPMorgan Chase Bank N.A.
                Foreclosure and Claims Process Review
                            Columbus, OH




     
     
    MEMORANDUM NO. 2012-CH-1801                                   MARCH 12, 2012
                                                       U.S. Department of Housing and Urban Development
                                                       Office of Inspector General for Audit, Region V
                                                       Ralph H. Metcalfe Federal Building
                                                       77 West Jackson Boulevard, Suite 2646
                                                       Chicago, IL 60604-3507

                                                       Phone (312) 353-7832 Fax (312) 353-8866
                                                       Internet http://www.hud.gov/offices/oig/
                                                       OIG Fraud Hotline 1-800-347-3735




                                                                                  MEMORANDUM NO.
                                                                                      2012-CH-1801
March 12, 2012

MEMORANDUM

FOR: Charles S. Coulter, Deputy Assistant Secretary for Single Family Housing, HU

      //signed//
FROM: Kelly Anderson, Regional Inspector General for Audit, 5AGA

SUBJECT:          JPMorgan Chase Bank, N.A.
                  Foreclosure and Claims Process Review
                  Columbus, OH

                                INTRODUCTION AND BACKROUND

As part of the Office of Inspector General’s (OIG) nationwide effort to review the foreclosure
practices of the five largest Federal Housing Administration (FHA) servicers (Bank of America,
Wells Fargo Bank, CitiMortgage, Ally Financial, Incorporated, and JPMorgan Chase Bank), we
reviewed JPMorgan Chase Bank’s (Chase) foreclosure and claims processes. In addition to this
memorandum, OIG issued separate memorandums for each of the other four reviews.1 We
performed these reviews due to reported allegations made in the fall of 2010 that national
mortgage servicing lenders were engaged in widespread questionable foreclosure practices
involving the use of foreclosure “mills” and a practice known as “robosigning”2 of sworn
documents in thousands of foreclosures throughout the United States. We initially focused our
efforts on examining the foreclosure practices of servicers in the judicial States and jurisdictions
in which they do business.3



1
  2012-FW-1802, 2012-AT-1801, 2012-KC-1801, and 2012-PH-1801.
2
  We have defined the term “robosigning” as the practice of an employee or agent of the servicer signing documents
  automatically without performing a due diligence review or verification of the facts.
3
  With respect to foreclosure procedures, there are three variations: those States that require a complete judicial
  proceeding, which are referred to as “judicial jurisdictions”; those that do not require a judicial proceeding; and
  those that are a hybrid. For the purposes of this review, we determined that there were 23 judicial States and
  jurisdictions.
Chase is a supervised FHA direct endorsement lender that can originate, sponsor, and service
FHA-insured loans. Chase’s foreclosure operations are conducted by its servicing branch, Chase
Home Finance, LLC (Chase Home), which is located in Westerville, OH. As of October 1,
2010, Chase Home serviced more than 580,000 FHA-insured loans. In addition, Chase acquired
EMC Mortgage Corporation and Washington Mutual Bank in March and September 2008,
respectively, and obtained their loan servicing portfolios.

During Federal fiscal years 2009 and 2010, Chase submitted 16,223 FHA insurance claims
totaling more than $2 billion.4 It also submitted 385 FHA insurance claims totaling $46 million
using EMC’s or Washington Mutual FHA servicing identification numbers during the review
period;5 thus, approximately 2.3 percent of its claims were for loans previously serviced by EMC
or Washington Mutual. In September 2010, Chase stated that it had temporarily halted judicial
foreclosures while it reviewed its foreclosure process. Because we identified potential False
Claims Act6 violations, we provided the U.S. Department of Justice (DOJ) with our analyses and
preliminary conclusions as to whether Chase engaged in the reported foreclosure practices.

DOJ used our review and analysis in negotiating a settlement agreement with Chase. On
February 9, 2012, DOJ and 49 State attorneys general announced their proposed settlement of
$25 billion with Chase and the four other mortgage servicers for their reported violations of
foreclosure requirements. As part of the proposed settlement agreement, each of the five
servicers will pay a portion of its settlement to the United States and also must undertake certain
consumer relief activities. The proposed settlement agreement described tentative credits that
each mortgage servicer would receive for modifying loans, including principal reductions and
refinancing, and established a monitoring committee7 and a monitor to ensure compliance with
agreed-upon servicing standards and consumer relief provisions. Once the final settlement
agreement has been approved by the courts, OIG will issue a separate summary report detailing
each of the five servicers’ allocated share of payment due as a result of the settlement agreement.

Our objective was to determine whether Chase complied with applicable foreclosure procedures
when processing foreclosures on FHA-insured loans.

                                      METHODOLOGY AND SCOPE

To accomplish our review objective, we

        Obtained an understanding of relevant legislation, program guidance, and criteria related
         to FHA single-family mortgage insurance.
4
  Properties located in judicial foreclosure states and jurisdictions accounted for $547 million in claims (26 percent
  of the total loans with claims). Properties located in nonjudicial foreclosure states and jurisdictions accounted for
  more than $1.55 billion in claims (74 percent of the total loans with claims). These amounts include all categories
  of FHA claims.
5
  October 1, 2008, through September 30, 2010
6
  31 U.S.C. § 3729 et. seq.
7
  Comprised of representatives of the State attorneys general, DOJ, and HUD.

                                                           2
       Obtained and reviewed relevant Chase written policies and procedures regarding its
        foreclosure process.
       Obtained and reviewed relevant reviews of Chase’s servicing and foreclosure processes.
       Interviewed Chase’s management and staff, including those involved in the document
        execution, notary, foreclosure, and claims processes, along with representatives from the
        law firm of Debevoise & Plimpton, LLP.8
       Coordinated with Chase’s legal counsel, our Office of Legal Counsel, and DOJ attorneys.
       Identified a random sample of 108 Chase FHA claims processed by the U.S. Department
        of Housing and Urban Development (HUD) during the review period. Additionally, we
        randomly selected 30 FHA-insured loans, the borrowers of which were identified by
        Chase as currently undergoing foreclosure actions.
       Reviewed FHA claims and related documents, including affidavits, for the 108 claims in
        our sample and foreclosure documentation for 30 FHA-insured loans, the borrowers of
        which were identified by Chase as currently undergoing foreclosure actions.
       Obtained and analyzed FHA claims data from both Chase and HUD.
       Obtained and analyzed Chase production records9 which identified documents that were
        signed and notarized during the review period. However, as described in the following
        section, the data were incomplete and did not represent our entire review period.
       Analyzed data for Chase FHA claims in the 23 judicial foreclosure States and
        jurisdictions and prepared an estimate of False Claims Act liability exposure for its FHA
        insurance claims.
       Issued an Inspector General administrative subpoena for documents and records.

During the course of our review and the drafting of this memorandum, Chase was actively
engaged in negotiations with DOJ in an attempt to resolve potential claims under the False
Claims Act or other statutes for the conduct we were reviewing. Accordingly, OIG determined
that our work product was privileged and not releasable to Chase for any purpose, including the
solicitation of written comments on our findings from Chase. For this same reason, we did not
provide Chase with a copy of the draft memorandum. Both DOJ and HUD concurred with our
determination that the work product was privileged.

OIG also issued memorandums reporting the results of the reviews of four other servicers. The
results reported in the five OIG memorandums differ due to various factors. These factors
include (1) the level of information made available to the auditors at the time of the onsite
reviews or that was obtained later through subpoenas or civil investigative demands10, (2)
variances between review procedures used, including the analysis of the data, that were governed


8
  The law firm retained by Chase to handle regulatory issues and complete a factual review of Chase’s foreclosure
  process.
9
  Chase’s production records in a Microsoft Excel format.
10
   Under 31 U.S.C. § 3733, civil investigative demands can be served on a person to give oral testimony whenever
   the Attorney General has reason to believe that the person may be in control of information relevant to a false
   claim investigation.

                                                         3
in part by the amount and types of information obtained; (3) differences between the foreclosure
procedures used by the servicers; and (4) scope limitations imposed by some servicers.

Our review generally covered Chase’s foreclosure and claims processes for its FHA claims
initially processed by HUD between October 1, 2008, and September 30, 2010, including its
procedures for signing and notarizing sworn judgment affidavits. The review focused on FHA-
insured loans for properties located primarily in judicial foreclosure States and jurisdictions,
because foreclosures in these States would require the filing of some form of sworn affidavit of
indebtedness with a court. We expanded the scope as needed to accomplish our objective. We
initiated our review on October 15, 2010, and performed our onsite work at Chase’s Westerville,
OH, office.

                                                    Scope Limitation

Our review was hindered by Chase’s reluctance to allow us to interview employees outside the
presence or involvement of its management staff or attorneys; therefore, the effectiveness of
those interviews was limited. On a number of occasions during the interviews, Chase’s
management or attorneys clarified statements provided by staff. In addition, Chase did not
provide read-only access to its mortgage servicing systems, which would have allowed us to
independently verify the amounts on the affidavits and assess the reliability of the data to
facilitate a better understanding of Chase’s internal controls.

Chase was unable to provide electronic production records for all operations specialists during
our review period. Chase’s production records, prepared using Microsoft Excel, identified the
persons who prepared each foreclosure package and signed the affidavits. However, for the
records provided, all of the data fields were not always complete, and Chase did not provide a
point of contact, who could explain and clarify the data. Further, Chase provided the production
reports nearly 4 months after our initial request. As a result, it was not possible to know whether
Chase omitted from the records information that was relevant to our review.

                                               RESULTS OF REVIEW

Chase did not establish effective control over its foreclosure process. This failure permitted a
control environment in which

               Affiants11 (Chase’s operations supervisors) routinely signed foreclosure documents,
                including affidavits, certifying that they had personal knowledge of the facts when
                they did not. Specifically, affiants signed foreclosure documents without reviewing
                the supporting or source documentation referenced in them. They also consistently
                failed to verify the accuracy of the foreclosure documents they signed.



11
     An affiant is a person who signs an affidavit and attests to its truthfulness before a notary public.
                                                               4
            Notaries public routinely notarized documents without witnessing affiant signatures.12
             They also failed to maintain required records of the documents they notarized.
            Occasionally, Chase’s operations specialists13 obtained affidavits from foreclosure
             counsels that already contained the amounts of the borrowers’ indebtedness, since
             foreclosure counsels had read-only access to certain data screens in Chase’s mortgage
             servicing system.

This flawed control environment resulted in Chase filing improper legal documents, thereby
misrepresenting its claims to HUD and may have exposed it to liability under the False Claims
Act.

                   Questionable Affidavit and Foreclosure Document Processes

Chase failed to follow HUD requirements14 for properties it foreclosed upon in judicial
foreclosure States and jurisdictions. These provisions required Chase to obtain and convey to the
Secretary of HUD good and marketable title to properties. Chase may have conveyed flawed or
improper titles to HUD because it did not establish a control environment which ensured that
affiants performed a due diligence review of the facts submitted to courts and that employees
properly notarized documents.

Judicial foreclosures were processed through the court system beginning with Chase’s filing a
complaint or petition regarding a mortgage purportedly in default. The formal legal document
stated what the debt was and why the default should allow Chase to foreclose on the property. In
many judicial foreclosures, an affidavit was part of the foreclosure documentation. Generally, a
representative of Chase swore in a notarized affidavit that it owned or held the mortgage in
question and that the borrower’s mortgage payments were in arrears. As judicial States and
jurisdictions routinely resolved foreclosures through summary judgment,15 the accuracy and
propriety of the documents were essential to ensure the integrity of the foreclosure process.
Chase used a flawed process to submit FHA conveyance claims for judicially foreclosed-upon
properties during the review period and received FHA claim payments of more than $547
million.16

Affiants Robosigned Foreclosure Documents17



12
   This procedure changed in September 2009, when Chase implemented the use of signing tables.
13
   Chase employees who prepared legal documents, including affidavits.
14
   24 C.F.R. § 203.366(a) and HUD Handbook 4330.4, paragraphs 2-6 and 2-23.
15
   A decision made on the basis of statements and evidence presented for the record without a trial. It is used when
   there is no dispute as to the facts of the case and one party is entitled to judgment as a matter of law.
16
   Excludes claims for deeds in lieu of foreclosure.
17
   According to Chase’s management, affiants’ executing foreclosure documentation without knowledge occurred
   only at Chase Heritage (the prior entity before its merger with JPMorgan & Co). This practice did not occur in its
   divisions that executed documentation for EMC’s and Washington Mutual’s servicing loan portfolios. OIG did
   not validate this statement.
                                                          5
Chase provided policies and procedures explaining the foreclosure process; however, the
documents did not provide details regarding the preparation and execution of legal documents,
including affidavits. Therefore, we relied on interviews with Chase’s management and staff and
legal representation from the law firm of Debevoise & Plimpton to obtain an understanding of
Chase’s foreclosure process. During the interviews, Chase’s operations supervisors
acknowledged that they routinely signed and certified that they had personal knowledge of the
contents of documents, including affidavits, without reviewing the source documents referred to
in the affidavits. Additionally, they acknowledged that they did not reverify the accuracy of the
foreclosure information stated in the affidavits. The operations supervisors reviewed the
affidavits only for completeness and to ensure that they had the authority to sign on behalf
(power of attorney) of that particular investor. However, they did not reverify the amounts on
the affidavits or the accuracy of the borrowers’ indebtedness computations.

According to interviews with Chase’s management and representatives from the law firm, before
September 2009, Chase’s document execution process was outsourced to First American.18
First-level supervisors over operations did not fully review the affidavits before executing them.
Chase established its own Foreclosure Document Management Division and hired the First
American staff members who were reviewing and executing affidavits on its behalf. However, it
continued the policies and procedures that First American had implemented for processing
foreclosure documents, with the exception of notarizing affidavits.

Affidavits require an affirmation that the person executing the legal document had personally
reviewed borrowers’ accounts and applicable records and had personal knowledge of the
amounts due on those accounts. Since the operations supervisors did not review the borrowers’
account information or reverify the amounts of the borrowers’ indebtedness, they did not have
personal knowledge. One operations supervisor stated that he was not familiar with the legal
documents that he was signing on behalf of Chase and did not receive training on how to execute
the affidavits. Therefore, the process that Chase used for processing foreclosures did not ensure
that required foreclosure documents were properly executed or that it conveyed good and
marketable titles to HUD.

Further, Chase’s operations supervisors signed the affidavits as assistant secretary or vice
president of Chase Home when these were not their official titles. Moreover, the interviews
disclosed that the titles were given by Chase for the sole purpose of allowing the individuals to
sign documents and came with no other duties or authority.

In interviews with Chase’s specialists, who prepared the affidavits,19 they stated that Chase’s
production goal was to manually prepare 40 affidavits daily.20 However, five of Chase’s

18
   Chase contractor that prepared and executed legal foreclosure documentation on its behalf. At the time of our
   review, Chase’s management was uncertain about when the contract with First American was initially executed.
   First American is no longer in business.
19
   To complete the affidavits, specialists obtained from Chase’s mortgage servicing system the borrowers’ mortgage
   payment histories, outstanding principal balances, accumulated interest payments, escrow amounts, and other
   pertinent information and then manually completed the information on the affidavits to determine the total
                                                        6
specialists said they prepared 70 or more affidavits per day. According to the specialists, they
sometimes would have 100 to 700 affidavits in their in-box for processing daily that were
required to be completed and executed within 7 days. Consequently, due to the volume of the
affidavits and time constraints, they had to review more affidavits than the required 40 per day.
Therefore, one specialist mentioned that she pursued the operations supervisors who would
execute the affidavits the “quickest” to meet Chase’s production goal and 7-day turnaround
requirement.

In 2008, Chase eliminated its Quality Control Division. Therefore, once the specialists manually
prepared the legal documents, including affidavits, they were not independently reviewed for
accuracy or validity. According to Chase, it reinstituted the division in July 2010. However, one
of Chase’s quality control supervisors stated that the division’s operations had been temporarily
discontinued at the time of our review. According to Chase, it was in the process of changing its
procedures.

Notaries Did Not Witness Signatures or Maintain Required Records

Chase did not establish a control environment which ensured that its notaries21 met their
responsibilities under State laws, which required them to witness affiants’ signatures on
documents they notarized.22 When Chase’s operations supervisors executed the affidavits, a
designated employee would collect the folders containing the affidavits. The specialists or other
Chase employees would extract the executed affidavits from the folders and then send them to be
notarized. Thus, the affidavits were not always executed in the presence of notary publics. Ohio
State law23 requires that notary publics who certify to the affidavit of a person administer the
appropriate oath or affirmation to the person. According to Chase, in September 2009, it
implemented a process in which operations supervisors and notaries would sit at a table to
execute and notarize affidavits. Therefore, the affidavits were being executed in the “presence”
of notary publics.

Affidavits Were Prepared by Law Firms

In interviews with Chase’s management and staff, they acknowledged that on occasion, the
specialists obtained affidavits from their foreclosure counsel that already contained the amounts
of the borrowers’ indebtedness, since the foreclosure counsel had read-only access to certain data
screens in Chase’s mortgage servicing system. Additionally, in some cases, before the
foreclosure counsel filed the complaints with the court, he or she sometimes added verbiage and



   amounts of the borrowers’ indebtedness.
20
   Chase’s production goals were eliminated in September 2010, when Chase ceased foreclosing on properties
   located in judicial States and jurisdictions.
21
   The notaries had additional job duties and responsibilities.
22
   Every State’s notary laws require that the notary personally administer an oath and personally verify the identity
   of the document signer.
23
   Chapter 147.14
                                                          7
clauses to the affidavits regarding borrowers or the subject properties. In these instances, the
information on the affidavits was not verified or validated by Chase.

On November 16, 2010, the Congressional Oversight Panel released an indepth report analyzing
the robosigning allegations.24 Its report concluded that “[t]he foreclosure documentation
irregularities unquestionably show a system riddled with errors” and emphasized “that mortgage
lenders and securitization servicers should not undertake to foreclose on any homeowner unless
they are able to do so in full compliance with applicable laws and their contractual agreements.”

Affidavits Contained Inconsistencies and Errors

We reviewed 36 affidavits for foreclosures in judicial States to determine whether the amounts of
borrowers’ indebtedness were supported. Chase was unable to provide documentation for the
amounts of borrowers’ indebtedness listed on the affidavits for all except four.25 When we
reviewed the four affidavits, three were inaccurate. Specifically, the amounts of the borrowers’
late charges and accumulated interest did not reconcile with the information in Chase’s mortgage
servicing system. In discussions with Chase’s assistant vice president for default support
services, he indicated that he did not know why the amounts did not agree. Further, Chase’s vice
president and assistant general counsel mentioned that when Chase reverified selected affidavits
for the Office of the Comptroller of the Currency, the amounts on the selected affidavits agreed
with the information in its system.26

                                              CONCLUSION

Chase did not establish an effective control environment to ensure the integrity of its foreclosure
process. Because it failed to establish proper policies and procedures that fostered compliance
with laws and regulations, its affiants signed foreclosure documents automatically without
performing a due diligence review or verification of the facts, its notaries failed to authenticate
signatures, and it used law firms that may have included inaccurate information on foreclosure
documents. As a result, Chase engaged in improper practices by not fully complying with
applicable foreclosure procedures when processing foreclosures on FHA-insured loans. This
flawed control environment resulted in Chase’s filing improper legal documents, thereby
misrepresenting its claims to HUD.

During the review period, Chase submitted 4,437 conveyance27 claims totaling more than $547
million in the 23 judicial foreclosure States and jurisdictions. DOJ used our review and analysis
in negotiating the proposed settlement agreement.
24
   Congressional Oversight Panel, November Oversight Report Examining the Consequences of Mortgage
   Irregularities for Financial Stability and Foreclosure Mitigation (November 16, 2010), available at
   http://cop.senate.gov/documents/cop-111610-report.pdf (submitted under section 125(b)(1) of Title 1 of the
   Emergency Economic Stabilization Act of 2008, Pub. L. No. 110-343).
25
   Chase’s foreclosure processing software overrode account histories when applying claim payments which caused
   the principal and interest records necessary for verifying the affidavits to display as zeros.
26
   The selected affidavits were prepared within the past 6 months of our review.
27
   Excludes deeds in lieu of foreclosure
                                                       8
Once the settlement agreements are approved by the court, OIG will issue a separate summary
memorandum to HUD containing recommendations to correct weaknesses discussed in this and
the other four memorandums. Accordingly, this memorandum contains no recommendations.

Appendixes:
Appendix A Affiant Narratives




                                             9
                                        APPENDIX
Appendix A

                  AFFIANT AND NOTARY NARRATIVES

The affiant narratives in this appendix disclose the number of affidavits the most active staff in
our sample signed. We selected excerpts from affidavits and interviews to include in this
memorandum from the 16 staff persons interviewed. As Chase did not provide separate records
for FHA foreclosures and conventional foreclosures and the completeness of the production
sheets could not be verified, we were unable to present figures that would be complete, reliable,
or accurate (see Methodology and Scope section).




                                                10
                 Operations Supervisor 1 – Affiant

Operations supervisor 1 signed 25 amount due affidavits attesting to her personal knowledge of
the facts and matters present in the affidavit and to having reviewed records in our sample of 108
files that were for judicial foreclosure proceedings.

Interview Excerpts

Operations supervisor 1 signed multiple documents but was uncertain about the number or
amount of documents she had signed. She stated that she did not have personal knowledge of the
content of the affidavits or the affidavit process and did not review the affidavits she was
signing. However, she signed foreclosure documents, including affidavits certifying that she had
personal knowledge of the facts when she did not. She acknowledged that she consistently failed
to reverify the accuracy of the amounts or information on the foreclosure documents she
executed.

Based on an employee signing authority listing provided by Chase, operations supervisor 1
obtained her signing authority in May of 2007 as vice president of Chase Home, and her job
responsibilities included monitoring production, compiling information, and executing
documents.

Affidavit Excerpts

The typical contents of one of the affidavits this staff member signed included

      “Affiant has the custody of and has personal knowledge of the accounts of said company,
       and specifically with the account of the borrower, defendant herein.”

      “Affiant stated that the account was in default and that plaintiff had elected to call the
       entire balance of said account due and payable in accordance with the terms of the note
       and mortgage attached to the complaint. Affiant stated that that principal balance was
       due on the account. The borrower’s principal balance together with interest thereon from
       the date of default at the rate specified in the note, late charges and advances for taxes,
       insurance or otherwise expended to protect the property.”




                                                11
                      Operations Supervisor 2 – Affiant

Operations supervisor 2 signed 17 amount due affidavits attesting to her personal knowledge of
the facts and matters present in the affidavit and to having reviewed records in our sample of 108
that were all for judicial foreclosure proceedings.

Affiant’s Deposition

According to a deposition filed in circuit court,28 operations supervisor 2 was among eight
managers who together signed about 18,000 documents per month and did not have personal
knowledge of the facts and assertions in the affidavits. She admitted to signing documents
without review unless an operations specialist brought them to her with a question, and she stated
that her personal knowledge of the affidavits was based on what the operations specialists had
entered into the affidavits. She stated that she did not review additional information to verify
that there were no issues of material fact.

Interview Excerpts

Operations supervisor 2 was given the authority to sign as assistant secretary and later as a vice
president. Employees were not given training concerning affidavits and signature authority.
When employees would sign affidavits, they would not review the document or supporting
documents; therefore, the employees had nothing to reference. She signed about three times a
day. She stated that supervisors signed the most. She did not know how many documents she
signed per day. She stated that signing was not a performance criterion in employee reviews.
When operations supervisor 2 received the affidavits, they were usually open to the signature
page. She did not complete any procedures apart from checking the signature page, and she did
not confirm that each was an actual default. She did not review the book and records for the
affidavit or personally confirm that each was a defaulted loan. She also did not receive any
training or an explanation that the executed documents were admissible in a court.

Affidavit Excerpts

          “This affidavit is submitted in support of Plaintiff’s Motion for Final Judgment for the
           purpose of showing: that there is not genuine issue as to any material fact, that plaintiff is
           entitled to enforce the note and mortgage and plaintiff is entitled to judgment as a matter
           of law.”



28
     Fifteenth Judicial Circuit, case number 50-2008-CA-016857

                                                        12
   “I am Assistant Secretary (title), of Chase Home Finance. Chase Home Finance is the
    servicer of the loan…I am familiar with the books of account and have examined all
    books, records, and documents kept by Chase concerning the transactions alleged in the
    complaint…The books, records, and documents which affiant has examined are managed
    by employees or agents whose duty it is to keep the books accurately and completely.
    Furthermore, affiant has a personal knowledge of the matters contained in the books,
    records and documents kept by Chase Home Finance.”

   “I have personal knowledge of the facts contained in this affidavit, specifically I have
    personal knowledge of the facts regarding the sums of money which are due and owing to
    Chase Home Finance pursuant to the note and mortgage which is the subject matter of the
    lawsuit.”




                                           13
                 Operations Supervisor 3 – Affiant

Operations supervisor 3 signed three amount due affidavits attesting to her personal knowledge
of the facts and matters present on the affidavit and to having reviewed records in our sample of
108 loans that were for judicial foreclosure proceedings.

Interview Excerpts

In July of 2009, operations supervisor 3 became the supervisor of imaging and then was placed
on a special project in January of 2010 for EMC. At that point, she started supervising document
execution, which included keeping track of human resource requirements, enforcing deadlines,
tracking production, and tracking key affidavits in the Access database. The foreclosure
document management staff reviewed and verified information for amount due affidavits,
military and nonmilitary affidavits, and substitution of trustee. These procedures were initially
described on an EMC’s Intranet Web site. Her signing authority was obtained in July of 2009, as
she started signing foreclosure documents. As an operations supervisor in default support
servicing, she would require her staff to review or verify the information, then she would sign the
documents. She did not review or have personal knowledge of the affidavits. Supervisors would
confirm that there were no blanks and then execute the documents.

Affidavit Excerpts

     “This affidavit is submitted in support of Plaintiffs Motion for Final Judgment for the
      purpose of showing: that there is no genuine issue as to any material fact, that Plaintiff is
      entitled to enforce the note and mortgage and plaintiff is entitled to a judgment as a
      matter of law.”

     “I am familiar with the books of account and have examined all books, records, and
      documents kept by Chase Home Finance concerning the transactions alleged in the
      Complaint. All of these books, records and documents are kept by Chase Home Finance
      in the regular course of its business as servicer of the loan transaction and are made at or
      near the time by, and from information transmitted by, persons with personal knowledge
      of the facts such as your affiant.”

     “I have personal knowledge of the facts contained in this affidavit. Specifically, I have
      personal knowledge of the facts regarding the sums of money which are due and owing
      to Chase Home Finance pursuant to the note and mortgage which is the subject matter of
      the lawsuit.”



                                                14
                 Operations Supervisor 4 – Affiant

Operations supervisor 4 signed three amount due affidavits attesting to her personal knowledge
of the facts and matters present on the affidavit and to having reviewed records in our sample of
108 loans that were for judicial foreclosure proceedings.

Interview Excerpts

The affiant stated that she was given authority to sign all types of affidavits in 2005. When she
was given this signing authority, she was authorized to sign as assistant vice president or vice
president. However, she was not a vice president or assistant vice president of Chase Home
Finance. She stated that she was given a letter in 2005 that explained her signing authority and
when she was to use it; she was required to sign the letter. She did not receive training on how to
properly execute legal documents, in particular affidavits. She stated that she was not informed
about what she was signing, nor did she verify the accuracy of the documentation. Further, she
did not read the documents or ensure that the foreclosures were valid.

Affidavit Excerpts

      “This Affidavit is submitted in support of Plaintiff’s Motion for Final Judgment for the
       purpose of showing; that there is no genuine issue as to any material fact, that plaintiff is
       entitled to enforce the note and mortgage and plaintiff is entitled to a judgment as a
       matter of law.”

      “I am familiar with the books of account and have examined all books, records, and
       documents kept by Chase Home Finance concerning the transactions alleged in the
       Complaint. All of these books, records and documents are kept by Chase Home Finance
       in the regular course of its business as servicer of the loan transactions and are made at or
       near by, and from information transmitted by, persons with personal knowledge of the
       facts such as your affiant…These books, records, and documents which affiant has
       examined are managed by employees or agents whose duty it is to keep the books
       accurately and completely. Furthermore, the affiant has personal knowledge of the
       matters contained in the books, records and document kept by Chase Home Finance.”

      “I have personal knowledge of the facts contained in this affidavit. Specifically, I have
       personal knowledge of the facts regarding the sums of money which are due and owing to
       Chase Home Finance pursuant to the note and mortgage which is the subject matter of the
       lawsuit.”




                                                15
